CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the
Petition for a Writ of Certiorari contains 3393 words, excluding the
parts of the document that are exempted by Supreme Court Rule
33.1(d) and 3929 including those parts other than the cover page
and signature block.
I declare under penalty of perjury that the foregoing is true
and correct.
Executed on January 19, 201.

Louis R. Koerner, Jr.
KOERNER LAW FIRM
1204 Jackson Avenue
New Orleans, Louisiana 70130

